No.

IN THE
SUPREME COURT OF THE UNITED STATES
KIRK COTTOM — PETITIONER
VS.
UNITED STATES OF AMERICA — RESPONDENT
DECLARATION OF TIMELY FILING
I, Kirk Cottom, assert that I submitted the PETITION FOR A WRIT OF CERTIORARI on May
15,2019. Two copies of the petition were presented to the prison legal mail clerk, they were then logged
in and accepted. Both envelopes had three one dollar stamps affixed and the heat sensitive address labels
required by the prison.
On May 31, 2019,1 was summoned to prison legal mail and the copy of the petition that was
addressed to the Solicitor General was returned to me. I informed the Supreme court clerk of this anomaly
and asked for direction but did not receive a response; therefore, I assumed that the court clerk for the
Supreme Court had received their copy of the petition.
On February 10, 2021, Clara Houghteling responded to my change of address request with the
news that “.. .there seems to be no record of your petition having been received in this court.” I then sent
her proof of the incorrect delivery of the Solicitor General’s copy to the clerk for the Court of Appeals
Federal Circuit. That clerk then sent the petition to the Court of Appeals for the Eighth Circuit. That clerk
then sent the petition back to me at FSL Elkton in Lisbon Ohio. (See Attached note from Federal Circuit
clerk.)
I then asked Clara Houghteling how to rectify this problem and she said I should re-submit the
petition with this declaration. Therefore, I declare under penalty of perjury that the foregoing is true
and correct. Executed on May 27,2021.
/V
V

HVEPkIrk Cottom
JUN 2 - 2021
JuplR?EMEFCTQl!B(^F.>y<

,’iW-

United States Court of Appeals
for the Federal Circuit
717 Madison Place, N.W.
Washington, D.C. 20439
Peter R. Marksteiner
Clerk of Court

Clerk’s Office
202-275-8000

May 23, 2019
United States Court of Appeals for the Eighth Circuit
Thomas F. Eagleton Courthouse
Office of the Clerk
111 South 10th Street
Room 24.329
— ----------St. Louis, MO 63102
In re: Cottom v. USA
Case no: 16-1050
Dear Clerk,
I am transmitting to your court original documents that were submitted to the
United States Court of Appeals for the Federal Circuit in error. We received the
documents on May 22, 2019.

Very truly yours
Is/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court
Enclosures: Original documents
cc:

Kirk Cottom
Reg #22413-055
Federal Satellite Low Elkton
PO Box 10
Lisbon, OH 44432

